No. 19-547
IN THE
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
Petitioners,

v.
SIERRA CLUB, INC.,

Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
Electronic Privacy Information Center as Amicus Curiae in Support of Respondent
complies with the word limitations set forth by the Rules of the Court. I certify that
the Brief contains 4,826 words, not counting the portions excluded by Supreme
Court Rule 33.1(d).
I declare that under penalty of perjury that the foregoing is true and correct.
Executed on August 3, 2020.
/s/ Alan Butler
Alan Butler
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave N.W.
Washington, DC 20036
(202) 483-1140
butler@epic.org

